      OFFICE OF THE INSPECTOR GENERAL
      UNITED STATES POSTAL SERVICE




June 15, 2007

ELLIS BURGOYNE
VICE PRESIDENT, SOUTHWEST AREA OPERATIONS

SUBJECT:      Audit Report – Vehicle Management – National Trailer Lease Renewal –
              Southwest Area (Report Number NL-AR-07-005)

In September 2000, U. S. Postal Service Headquarters signed a National Trailer Lease
to acquire trailers to transport mail. The contract plus renewal option was for a
12-year period and would cost the Postal Service more than $250 million over that
period. In July 2006, the Postal Service executed the lease renewal for 6 years.

This report presents results from the Southwest Area portion of our nationwide audit of
the National Trailer Lease renewal (Project Number 07XG007NL000). The objectives of
our nationwide audit are to determine whether the trailer procurement was effective and
to identify opportunities to save money. Because individual Postal Service areas control
the National Trailer Lease fleet, our audit approach is regional. This report is one in a
series of reports; it focuses on the Southwest Area and the 302 nationally leased trailers
Postal Service Headquarters allocated to the area. The purpose of this audit was to
determine whether the Southwest Area properly analyzed and reported trailer
requirements in support of the National Trailer Lease procurement and to identify
opportunities to save money.

The National Trailer Lease renewal could have been more effective if the Southwest
Area had improved trailer fleet management control, properly analyzed trailer
requirements, and reported those requirements to Postal Service Headquarters before
headquarters renewed the National Trailer Lease. However, because of weaknesses in
fleet management control, the Southwest Area did not accurately identify its trailer
requirements, and the Postal Service may have missed an opportunity to save
$997,016 because Postal Service Headquarters leased more trailers than the
Southwest Area needed.

The Postal Service can save $3,757,385 by properly analyzing requirements and
returning unneeded trailers. We recommend that the Southwest Area improve
management control, analyze trailer requirements, and return unnecessary trailers to
the control of Postal Service Headquarters for reallocation or return them to the leasing
contractor. We will report $997,016 in questioned costs and $3,757,385 in funds put to
better use in our Semiannual Report to Congress.

Management agreed with our findings and recommendations. They stated they would
strengthen management control, had already analyzed the number of trailers needed,
would return some trailers by June 30, 2007, would conduct further evaluation and
report that information along with their savings estimate by December 31, 2007.
Management’s comments and our evaluation of these comments are included in the
report.

The U.S. Postal Service Office of Inspector General (OIG) considers all the
recommendations significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective actions are
completed. These recommendations should not be closed in the follow-up tracking
system until the OIG provides written confirmation that the recommendations can be
closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Joe Oliva,
Director, Transportation, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Susan Brownell
    Anthony M. Pajunas
    Dwight Young
    Lynn Forness
    Katherine S. Banks
Vehicle Management – National Trailer Lease Renewal –                                  NL-AR-07-005
 Southwest Area


                                        INTRODUCTION
Background                      During fiscal year 2000, the U.S. Postal Service began a
                                major, multiphased, corporate initiative to terminate local
                                trailer contracts, centralize trailer acquisition at Postal
                                Service Headquarters, and commit to a single national
                                contractor.




 National Trailer Lease and
 other trailers at the Dallas
  Bulk Mail Center (BMC),
 Dallas, Texas, May 2, 2007.




                                In September 2000, the Postal Service signed a “National
                                Trailer Lease” for 4,475 trailers with Transportation
                                International Pool, Inc., a wholly-owned trailer and
                                equipment leasing subsidiary of General Electric. The
                                anticipated cost of the 12-year lease plus renewal option
                                was more than $250 million. Management stated that the
                                centralized national contract would:

                                   •   Reduce the average cost to lease a trailer from
                                       $11.57 to $10.21 per day.

                                   •   Save the Postal Service more than $2.2 million
                                       annually.

                                   •   Provide the flexibility to have trailer inventory only
                                       when and where trailers were needed because
                                       unneeded trailers could be returned to the leasing
                                       contractor.




                                                   1
Vehicle Management – National Trailer Lease Renewal –                              NL-AR-07-005
 Southwest Area



                              In March 2002, the New York Metro Area requested
                              1,500 additional trailers under National Trailer Lease
                              Phase II. The lease plus renewal option was 12 years, and
                              the anticipated cost exceeded $40 million. New York Area
                              officials explained that they were excluded when Postal
                              Service Headquarters negotiated Phase I because their
                              local contracts would not expire for 3 years.

Prior Report Coverage         We audited National Trailer Lease Phase I and Phase II and
                              issued a series of reports. Collectively our reports
                              concluded:

                                  •   The Postal Service could have saved money by
                                      purchasing needed trailers instead of leasing them.

                                  •   The acquisition decision did not comply with Postal
                                      Service policy or the analytical discipline
                                      commensurate with a $250 million trailer acquisition.

                                  •   The acquisition decision was not supported by
                                      reliable data, necessary documentation, or adequate
                                      records.

                                  •   The Postal Service did not adequately consider the
                                      number of trailers required, and consequently, may
                                      have leased more trailers than needed.

                                  •   The Postal Service did not have the inventory control
                                      necessary to identify unneeded trailers so those
                                      trailers could be returned to the leasing contractor.

                                  •   The Postal Service was improperly storing equipment
                                      in costly roadworthy national lease trailers when
                                      non-roadworthy storage trailers or other cost effective
                                      storage solutions were available.

                              Management agreed that New York (National Trailer Lease
                              Phase II) already had more trailers than needed, agreed to
                              immediately return 300 trailers to suppliers, and estimated
                              that returning trailers would save more than $1 million
                              annually. They acknowledged that Postal Service computer
                              data was unreliable and did not accurately capture all
                              operational requirements. Management further stated that
                              they needed a comprehensive analysis to determine if their



                                                   2
Vehicle Management – National Trailer Lease Renewal –                                  NL-AR-07-005
 Southwest Area


                              trailer leasing decision was appropriate, and agreed to
                              conduct that analysis, improve inventory control, return any
                              unneeded trailers to the leasing contractor, and reinforce
                              their policy precluding equipment storage in national lease
                              trailers. For additional information on our reports see
                              Appendix A.

Lease Contract                On July 1, 2006, the Postal Service signed a renegotiated
Renewal                       6-year lease renewal. The new agreement reduced the
                              lease cost to $10.07 per trailer per day and was intended to:

                                  •   Improve inventory control by requiring the leasing
                                      contractor to install satellite tracking devices on all
                                      trailers by November 1, 2006.

                                  •   Save money by allowing the Postal Service to return
                                      unneeded trailers.

Trailer Allocation to the     Under the National Trailer Lease, Postal Service officials
Southwest Area                allocated 302 trailers to Southwest Area, which
                              subsequently assigned 300 to the Dallas Bulk Mail Center
                              (BMC). The Southwest Area assigned the other two trailers
                              to the Albuquerque Processing and Distribution Center
                              (P&DC).




  Three hundred trailers,
  or more than 99 percent
   of all National Trailer
  Lease trailers allocated
  to the Southwest Area,
    are assigned to the
        Dallas BMC.

   National Trailer Lease
  and other trailers in the
     Dallas BMC yard,
        May 2, 2007.




                              This is a nationwide audit. Because individual Postal
                              Service areas control the National Trailer Lease fleet, our
                              audit approach is regional. This report is one in a series of
                              reports and focuses on the Postal Service Southwest Area.



                                                   3
Vehicle Management – National Trailer Lease Renewal –                            NL-AR-07-005
 Southwest Area




Objectives, Scope,            The objectives of our nationwide audit are to determine
and Methodology               whether the trailer procurement was effective and identify
                              opportunities to save money. The purpose of this audit was
                              to determine whether the Southwest Area properly analyzed
                              and reported trailer requirements in support of the National
                              Trailer Lease procurement, and to identify opportunities to
                              save money.

                              During our work, we interviewed Postal Service officials at
                              headquarters and in the Southwest Area and visited the
                              Dallas BMC and other facilities in and around Dallas. We
                              observed and photographed operations, inspected trailers,
                              interviewed supervisors and employees, and examined
                              applicable Postal Service policies and procedures. Because
                              more than 99 percent of the trailers allocated to the
                              Southwest Area were assigned to the Dallas BMC, we
                              limited our physical inspections and analysis to trailers
                              assigned to that facility.




    National lease trailer
  leaving the Dallas BMC
           for the
    North Texas P&DC,
        May 2, 2007.




                              We used computer-assisted analysis techniques to examine
                              computer data in management’s Transportation Information
                              Management Evaluation System (TIMES) for the period
                              October 1, 2004, to September 30, 2006. We did not audit
                              or comprehensively validate the data; however, we noted
                              several control weaknesses that constrained our work. For
                              example, some computer records had missing or inaccurate
                              data. Although data and other limitations constrained our




                                                   4
Vehicle Management – National Trailer Lease Renewal –                            NL-AR-07-005
 Southwest Area


                              work, we compensated by applying alternate audit
                              procedures such as examining source documents,
                              observation, physical inspection, and discussions with
                              appropriate officials.

                              We examined the National Trailer Lease and other relevant
                              Postal Service documents and records. We discussed our
                              conclusions and observations with management officials
                              throughout our audit and included their comments where
                              appropriate. For details about our monetary impact
                              methodology, see Appendix B.

                              We conducted work associated with this report from
                              December 2006 through June 2007 in accordance with
                              generally accepted government auditing standards, and
                              included such tests of internal controls as we considered
                              necessary under the circumstances.




                                                   5
Vehicle Management – National Trailer Lease Renewal –                             NL-AR-07-005
 Southwest Area


                                         AUDIT RESULTS
National Trailer Lease         The National Trailer Lease procurement could have been
Fleet Management               more effective if the Southwest Area had:

                                  •   Improved management control of the trailer fleet.

                                  •   Properly analyzed Southwest Area trailer
                                      requirements.

                                  •   Reported accurate Southwest Area trailer
                                      requirements to Postal Service Headquarters before
                                      headquarters renewed the National Trailer Lease.

                               However, because of weaknesses in fleet management
                               control, the Postal Service may have missed an opportunity
                               to save $997,016 because headquarters leased more trailers
                               than needed for the Southwest Area.




   National Trailer Lease
equipment and other trailers
     at the Dallas BMC,
      January 9, 2007.




                               We analyzed trailer usage for October 1, 2004, through
                               September 30, 2006, and concluded that the Southwest Area
                               did not have the management control necessary to identify
                               unneeded trailers so those trailers could be returned to the
                               leasing contractor. However, the Postal Service can save
                               $3,757,385 by improving control and taking advantage of the
                               lease provisions that allow the Postal Service to return
                               unneeded trailers.

                               Postal Service transportation operations are dynamic and
                               vehicle requirements change constantly. As discussed in the
                               objectives, scope, and methodology section, Postal Service
                               data has certain limitations. Therefore, throughout our audit,




                                                   6
Vehicle Management – National Trailer Lease Renewal –                                   NL-AR-07-005
 Southwest Area


                                   we coordinated with local transportation managers to gain
                                   their on-site perspective. In January 2007, as a follow-up to
                                   our data analysis, we visited Dallas to talk to local managers,
                                   observe operations, and inspect trailers. We noted that
                                   management had taken some steps to improve control, such
                                   as installing satellite tracking devices on all trailers.
                                   However, the area’s National Trailer Lease inventory was still
                                   larger than needed because management control was
                                   inadequate, Southwest Area transportation managers had
                                   not prepared for the lease renewal by properly analyzing
                                   trailer requirements, and regional facilities were improperly
                                   using more than 43 percent of nationally leased trailers to
                                   store equipment.




 Postal Service policy requires
  vehicle managers to analyze
     trailer requirements to
 determine whether trailers are
   needed for Postal Service
            operations.

 National lease trailers located
    in the Dallas BMC yard,
        January 10, 2007.




Management Control                 In response to our inquiries, local managers identified
                                   various control weaknesses. For example, during our
                                   January 2007 site visit, local managers explained that they:

                                      •   Had not analyzed how many trailers they needed for
                                          transportation; instead, they assumed that a trailer in
                                          place before lease renewal implied a valid
                                          requirement.

                                      •   Could not specify how all trailers were used, or
                                          whether all trailers were needed.

                                      •   Had not been trained on the satellite tracking system
                                          and had not used it.




                                                     7
Vehicle Management – National Trailer Lease Renewal –                                      NL-AR-07-005
 Southwest Area


                                       •   Had not performed a trailer inventory since
                                           November 21, 2006.

                                       •   Could not locate two trailers assigned to them
                                           because their inventory records were incomplete. The
                                           unaccounted-for trailers were worth about $40,000.

                                       •   Frequently used national lease trailers to store mail
                                           transport equipment.

Trailer Usage                       In addition to analyzing trailer fleet control weaknesses, we
                                    examined trailer usage. As shown in the following chart,
                                    Postal Service TIMES data indicated:

                                       •   On average, only 105 trailers, or about one-third of the
                                           total 300 trailers allocated to the Dallas BMC, were
                                           used every day.

                                       •   In 2 years, the maximum number of trailers used on a
                                           single day was 166; this maximum was reached on
                                           December 16, 2004.

                                       •   Consequently, 134 trailers, or more than 44 percent of
                                           the 300 trailers allocated to the Dallas BMC, were not
                                           needed to move mail.

                                                      DALLAS BMC TRAILER USAGE
                                                   OCTOBER 1, 2004 – SEPTEMBER 30, 2006
         There were
                              350
         300 trailers                              DECEMBER 16, 2004
         assigned to the      300
         Dallas BMC.
         The maximum          250
         number of trailers                134 TRAILERS NEVER NEEDED TO TRANSPORT MAIL
         used on a single     200
         day in any month.
                              150
         The average
         number of trailers 100
         used in any month.
                               50

                                0
                                OCT 04           APR 05          OCT 05           APR 06          OCT 06



Equipment Storage                   The National Trailer Lease is intended to provide trailers to
                                    meet transportation requirements. The Southwest Area had
                                    too many roadworthy national lease trailers in part because
                                    the area was using these roadworthy trailers to store
                                    equipment. Our inspections of National Trailer Lease



                                                      8
Vehicle Management – National Trailer Lease Renewal –                                NL-AR-07-005
 Southwest Area


                               equipment at the Dallas BMC, the Dallas P&DC, North Texas
                               P&DC, Fort Worth P&DC, and the Dallas Airport Mail Center,
                               identified 130 trailers loaded with equipment. This
                               represents more than 43 percent of the nationally leased
                               trailers assigned to the Southwest Area. Storing equipment
                               in nationally leased trailers is inconsistent with Postal Service
                               policy. A Postal Service Headquarters policy letter dated
                               August 11, 2004 (see Appendix C) states that storing
                               equipment in trailers leased for transportation is an
                               excessive and costly practice. The letter specifies that any
                               trailer storage requirement be analyzed and validated, and
                               that Postal Service policy is to fill storage requirements with
                               non-roadworthy trailers at lower rates.




    These national lease
  trailers were loaded with
         pallets at the
Dallas BMC, January 9, 2007.




Implementation and    On May 3, 2007, we met with the Vice President, Southwest
Audit Exit Conference Area Operations, and the Area Manager, Operations
                      Support. The officials agreed with our report and
                      recommendations. They said they had already begun
                      reviewing National Trailer Lease requirements, would review
                      alternatives for equipment storage, and believed they could
                      reduce the number of trailers assigned to the Southwest
                      Area and Dallas BMC.




                                                   9
Vehicle Management – National Trailer Lease Renewal –                               NL-AR-07-005
 Southwest Area


Recommendations               We recommend the Vice President, Southwest Area
                              Operations:

                                  1. Strengthen management control over National Trailer
                                     Lease equipment allocated to the Southwest Area.

                                  2. Analyze the number of trailers needed to transport
                                     mail and equipment and return unneeded trailers to
                                     the control of Postal Service Headquarters for
                                     reallocation or return to the leasing contractor.

                                  3. Analyze storage requirements and procure storage
                                     space in the most cost-effective manner.

Management’s                  Management agreed with our findings and
Comments                      recommendations, stating they:

                                  •   Would strengthen management control by raising
                                      awareness of trailer utilization;

                                  •   Had already analyzed the number of trailers needed
                                      to transport mail and equipment, determined some
                                      trailers could be returned this month, and would return
                                      the trailers no later than June 30, 2007;

                                  •   Would further evaluate the number of trailers needed
                                      and report that information by December 31, 2007;
                                      and

                                  •   Would research cost-effective storage space
                                      opportunities to offset the practice of storing
                                      equipment in trailers.

                              Management also agreed there were savings to be captured
                              and they would report their savings estimate when they
                              completed their further evaluation. Management’s
                              comments, in their entirety, are included in Appendix D.

Evaluation of                 Management’s comments are responsive to the findings and
Management’s                  recommendations. Management’s actions taken or planned
Comments                      should correct the issues identified in the findings.




                                                  10
    Vehicle Management – National Trailer Lease Renewal –                            NL-AR-07-005
     Southwest Area


                                                                 APPENDIX A

                                                     PRIOR REPORT COVERAGE

                                                                                   Report           Final Report   Monetary
                                    Report Title                                   Number               Date        Impact

Safety and Security of the Postal Service Leased Trailer Fleet                   TR-AR-01-002       Mar 30, 2001    $17,561,800

Leased Trailer Deficiencies in the New York Metro Area                           TR-MA-01-001       Mar 20, 2001              0

Management Advisory – Trailer Damage                                             TD-MA-02-002       Mar 22, 2002      5,000,000

Trailer Lease Justification                                                      TD-AR-02-002       Mar 29, 2002     85,000,000

Trailer Damage Video Report                                                      TD-VD-02-001       Mar 9, 2002               0

New York Metro Area Trailer Acquisition Requirements                             TD-MA-02-003       Jul 10, 2002              0

New York Metro Area Trailer Acquisition – Safety and Length                      TD-AR-03-001       Oct 28, 2002              0

New York Metro Area Operational Use of Trailers                                  TD-MA-03-001       Jan 29, 2003      4,424,734

New York Metro Area Trailer Acquisition – Safety and Length Video                TD-VR-03-001       Feb 5, 2003               0

New York Metro Area Trailer Acquisition – Lease versus Buy                       TD-AR-03-009       Mar 31, 2003      4,021,234

Vehicle Management – Trailer Requirements – Northeast Area                       NL-AR-04-006       Sep 30, 2004      9,316,625

Vehicle Management – National Trailer Lease – A.T. Kearney, Inc. Analysis        NL-ID-06-002       Feb 6, 2005               0

Vehicle Management – National Trailer Lease – Unresolved Audit Recommendations   NL-MA-05-001       Apr 21, 2005              0

Vehicle Management – National Trailer Lease Requirements – Capital Metro Area    NL-AR-06-013       Sep 29, 2006      1,916,648

Total Number of Reports: 14                                                                                        $127,241,041




                                                                       11
Vehicle Management – National Trailer Lease Renewal –                                                  NL-AR-07-005
 Southwest Area


         APPENDIX B. COST OF EXCESS TRAILERS NOT USED TO
                  TRANSPORT MAIL AND EQUIPMENT

The Postal Service may have missed the opportunity to save almost $1 million
because it leased more trailers than the Dallas Bulk Mail Center needed.

Cost of leased trailer per day, October 1, 2004, through June 30, 2006 = $10.21
Cost of leased trailer per day, July 1, 2006, through September 30, 2006 = $10.07

Common fleet trailers leased daily at the Dallas Bulk Mail Center:                                           300

Minus the highest number of trailers recording use on any 1 day between
October 1, 2004, and September 30, 2006:                                                                     166

Minimum excess number of trailers leased:                                                                    134

Number of days from October 1, 2004, through June 30, 2006 = 638
Number of days from July 1, 2006, through September 30, 2006 = 92

$10.21 per day x 134 trailers x 638 days =                                                          $872,873
$10.07 per day x 134 trailers x 92 days =                                                            124,143

Total missed savings opportunity =                                                                  $997,016


The Postal Service can save almost $3.8 million during the next 10 years of the
National Trailer Lease by returning unneeded trailers.

Cost of leased trailer per day = $10.07

Trailers leased at the Dallas BMC                                                                            300

Minus maximum number of trailers with recorded use on any 1 day between
October 1, 2004, and September 30, 2006:                                                                     166

Minimum excess number of trailers leased:                                                                     134

Potential 10-year savings on returned trailers:

$10.07 per day x 134 trailers x 365 days x 10 years =                                               $4,925,237

Present value of savings using the Postal Service Finance discount rate of 5.25 percent = $3,757,385




** Any associated costs to replace national lease trailers with alternative storage methods for material and equipment
will affect the potential savings for the remaining life plus the renewal option of the lease.




                                                          12
Vehicle Management – National Trailer Lease Renewal –   NL-AR-07-005
 Southwest Area


                                          APPENDIX C

 POLICY FOR EQUIPMENT STORED IN LEASED (SERVICE) TRAILER




                                                  13
Vehicle Management – National Trailer Lease Renewal –   NL-AR-07-005
 Southwest Area


                  APPENDIX D. MANAGEMENT’S COMMENTS




                                                  14
Vehicle Management – National Trailer Lease Renewal –   NL-AR-07-005
 Southwest Area




                                                  15
